CERTIFICATE OF SERVICE
NO. TBD
Vernon Wendell Risby
Petitioner(s)
v.
Timothy Moynihan et.al
Respondents)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. 1 am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
\

f:

2. On the undersigned date, I served the parties in the above captioned matter with the Vernon
Wendell Risby Petition for Writ of Certiorari, by mailing three (3) true and correct copies of
the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
. Noel Francisco
* Solicitor General of the United States
• Room 5614, Dept of Justice
950 Pennsylvania Ave.
Washington, DC 20530-0001
(202)514-2217
supremectbriefs@usdoj. gov
Counsel for Timothy Moynihan et.al.

f
Dan Abramovich
January 17, 2020
SCP Tracking: Risby-28409 Alava-Cover White

